                                Management Letter 14-06

                     NARA Computer Internet Browser Settings
The National Archives and Records Administration (NARA) Office of Inspector General (OIG),
Office of Investigations (OI) identified a weakness in how NARA provides internet access on
NARA owned computers. This weakness had a direct effect on what evidence could be available
in criminal and other investigations. Due to the sensitive nature of the weakness, and the
specificity with which it was addressed in the management letter, the contents of the letter will
not be posted online.
